                        U.S. Department of Agriculture
                           Office of Inspector General
                                      Northeast Region




              Audit Report

 Agricultural Marketing Service Management
Controls to Ensure Compliance with Purchase
 Specification Requirements for Ground Beef




                                   Report No. 01099-31-Hy
                                          September 2005
                     UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250
September 7, 2005

REPLY TO
ATTN OF:      01099-31-Hy

TO:           Lloyd C. Day
              Administrator
              Agricultural Marketing Service

ATTN:         David N. Lewis
              Deputy Administrator
              Compliance and Analysis Programs

FROM:         Robert W. Young /s/
              Assistant Inspector General
                for Audit

SUBJECT:      Agricultural Marketing Service Management Controls to Ensure Compliance with
              Purchase Specification Requirements for Ground Beef


This report presents the results of our audit of the Agricultural Marketing Service Management
Controls to Ensure Compliance with Purchase Specification Requirements for Ground Beef.
Your response to the official draft, dated August 5, 2005, is included as Exhibit A. Excerpts of
your response, and the Office of Inspector General’s (OIG) position are incorporated into the
Findings and Recommendations section of the report. Based on your response, management
decisions have been reached on all recommendations, except for Recommendations, 2, 3, and 4.
Please follow your agency’s internal procedures in forwarding documentation for final action, to
the Office of the Chief Financial Officer. Management decisions for the remaining
recommendations, can be reached once you have provided the additional information outlined in
the report section, OIG Position.

In accordance with Departmental Regulations 1720-1, please furnish a reply within 60 days,
describing the timeframes for implementing the planned corrective actions. Please note that the
regulation requires management decision to be reached on all recommendations within 6 months
of report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Agricultural Marketing Service Management Controls to Ensure Compliance with
Purchase Specification Requirements for Ground Beef (Audit Report No. 01099-31-Hy)

Results in Brief                   This report presents the results of the Office of Inspector General’s (OIG)
                                   review of the Agricultural Marketing Service (AMS) management controls to
                                   ensure compliance with purchase specification requirements for ground beef. 1
                                   AMS is responsible for procuring commodities donated to Federal food
                                   assistance programs administered by the Food and Nutrition Service (FNS),
                                   such as the National School Lunch Program (NSLP), Child and Adult Care
                                   Food Program, and Summer Food Service Program. The products purchased
                                   by AMS are provided to children, the elderly, and needy families. AMS is
                                   responsible for ensuring that the products it procures meet the purchase
                                   specifications and that suppliers comply with eligibility requirements. The
                                   purpose of the purchase specifications is to communicate the level of product
                                   uniformity required in ground beef used in school meals.

                                   We evaluated the effectiveness of AMS’ oversight of the purchase
                                   specification requirements. We determined that adequate management
                                   controls were not in place and functioning to ensure that ground beef was
                                   purchased from qualified suppliers and met quality standards. Specifically,
                                   we observed shortcomings with AMS’ accountability over products
                                   contaminated with microbes, corrective actions, and its sampling procedures,
                                   all of which are examples of breakdowns in AMS’ management control
                                   system. This information is addressed in detail in the Findings within this
                                   report.

                                   •    Adequate management controls were not in place to ensure that ground
                                        beef products purchased by AMS were free of pathogens. The purchase
                                        specification requirements prohibit the delivery of production lots of
                                        ground beef that test positive for Salmonella and Escherichia coli (E. coli)
                                        O157:H7. However, AMS had not required plants to maintain
                                        documentation verifying that product contaminated with microbes were
                                        properly identified, segregated, and controlled. Therefore, at the two
                                        plants we visited, documentation was not available to support that beef
                                        product containing Salmonella was not used in the production of ground
                                        beef purchased by AMS for distribution to schools and other Federal
                                        feeding programs.

                                        Although beef products with the presence of Salmonella may be eligible
                                        for commercial use under Food Safety and Inspection Service (FSIS)


1
    “Technical Requirements Schedule-Ground Beef-2003 (TRS-GB-2003) for United States Department of Agriculture Purchases of Ground Beef Items,
    Frozen,” issued in May 2003 and known as TRS-GB-2003.
i




USDA/OIG-AUDIT No. 01099-31-Hy                                                                                                                i
                       regulations, a higher standard has been established by AMS. AMS’
                       specification requirements are more stringent than FSIS’ standards, in
                       part, because the commodities purchased by AMS are being donated to
                       Federal food assistance programs that feed infants, children, the elderly,
                       and immuno-compromised persons who are more susceptible to severe
                       illness as a result of pathogens.

                   •   Although AMS has the authority to suspend suppliers who deviate from
                       program requirements, the agency took no corrective action against
                       suppliers with recurring deviations (known as non-conformances),
                       numerous commodity complaints, and products that tested positive for
                       prohibited pathogens. In some instances, AMS even awarded contracts to
                       suppliers with outstanding non-conformances. For example, during school
                       year (SY) 2003-2004, Plant C had six positive ground beef samples—to
                       include two Salmonella positive samples, one generic E. coli positive
                       sample, and three E. coli O157:H7 positive samples. Also, Plant C
                       received 10 beef commodity complaints and was cited 30 times
                       for non-conformance. However, the supplier was allowed to remain in the
                       program during the entire SY and was awarded additional contracts. Also
                       during that SY, Plant B was required to correct three
                       cited non-conformances yet was awarded four contracts, to supply
                       over 4 million pounds of beef, before the non-conformances were
                       corrected.

                   •   AMS did not ensure that suppliers used effective sample selection
                       procedures. We observed that the sampling methods used by the plants to
                       test beef for the presence of pathogens, fat, and objectionable material did
                       not preclude manipulation of test results. For example, we observed plant
                       officials coring boneless beef to extract a sample out of the center cut of
                       the meat, an area that is less likely to contain pathogens than surface areas
                       which could more easily come into contact with harmful microbes. Also,
                       we learned that the box numbers of ground beef samples, randomly
                       generated by the plant, were displayed prior to the start of production; and
                       thus known to plant personnel responsible for pulling the sample. By
                       accepting ground beef produced in accordance with these practices, AMS
                       did not ensure that the sampling was random and free from supplier
                       influence. These ineffective sampling practices increased the risk that low
                       quality ground beef might have been provided to the NSLP and other
                       Federal feeding programs.

                   As part of our review, we assessed AMS’ coordination with other agencies
                   during recalls of meat products, and we visited AMS laboratories to evaluate
                   their testing procedures. We found that AMS effectively coordinated with the



                                                                                                       i




USDA/OIG-AUDIT No. 01099-31-Hy                                                                    ii
                   FSIS and FNS regarding recalls. Specifically, AMS properly implemented
                   recall and hold procedures and worked with FSIS and FNS to identify and
                   remove the recalled product. AMS’ laboratory procedures for receiving,
                   storing, and testing ground beef samples were adequate.

Recommendations
in Brief           AMS should require suppliers to establish and implement recordkeeping
                   procedures for products not in conformance with quality specification
                   requirements. The procedures should facilitate traceability and accountability
                   to ensure that prohibited materials are properly identified, segregated and
                   controlled, and not used in the production of AMS commodities.

                   AMS should establish and implement a process for continuously evaluating
                   supplier eligibility and the overall performance of a plant. This process should
                   include an evaluation of repetitive non-conformance violations, commodity
                   complaints, and positive test results to ensure corrective actions have been
                   implemented and indicate when enforcement actions are warranted.

                   AMS personnel should review the contractor’s technical proposal prior to
                   acceptance. This review should ensure that the methods to be used in
                   selecting samples are free from bias and manipulation, thereby generating
                   random samples that accurately represent the production universe.

Agency Response
                   AMS provided a written response to the official draft report on
                   August 5, 2005. We have incorporated excerpts from AMS’ response in the
                   Findings and Recommendations section of this report along with the OIG’s
                   position. AMS’ response is included as Exhibit A.

OIG Position
                   Based on AMS’ response, we were able to reach management decision on
                   three of the report’s six recommendations. The Findings and
                   Recommendations sections of this report provides the details of the actions to
                   be taken and the additional information needed to reach management decision
                   on Recommendations 2, 3, and 4.




USDA/OIG-AUDIT No. 01099-31-Hy                                                                   iii
Abbreviations Used in This Report

AMS            Agricultural Marketing Service
ARC            Audit, Review, and Compliance
CACFP          Child and Adult Care Food Program
CFR            Code of Federal Regulations
Cpk            Process Capability
E. coli        Escherichia coli
FNS            Food and Nutrition Service
FSIS           Food Safety and Inspection Service
GAO            Government Accountability Office
LS-2           Livestock and Seed
MGC            Meat Grading and Certification
NSLP           National School Lunch Program
OCFO           Office of the Chief Financial Officer
OIG            Office of Inspector General
SE             Supplier Eligibility
SFSP           Summer Food Service Program
SPC            Statistical Process Control
SY             School Year
TRS-GB-2003    Technical Requirements Schedule-Ground Beef-2003
USDA           United States Department of Agriculture




USDA/OIG-AUDIT No. 01099-31-Hy                                    iv
Table of Contents
Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1. Supplier Production Process........................................................................................... 5

        Finding 1             Adequate Controls Were Not in Place to Ensure That Salmonella
                              Contaminated Ground Beef Was Not Supplied to the NSLP and Other
                              Federal Feeding Programs....................................................................................... 5
                                  Recommendation 1 .......................................................................................... 6

    Section 2. Supplier Eligibility........................................................................................................... 7

        Finding 2             AMS Did Not Identify Repetitive Deficiencies and Instances of Non-
                              Conformance to Assess Overall Performance......................................................... 7
                                  Recommendation 2 ........................................................................................ 11
                                  Recommendation 3 ........................................................................................ 12
        Finding 3             Bid Award Approval Procedures Were Not Followed.......................................... 13
                                  Recommendation 4 ........................................................................................ 14

    Section 3. Product Sampling .......................................................................................................... 16

        Finding 4             Sampling Procedures to Test for Microbes, Objectionable Material, and Fat
                              Were Ineffective.................................................................................................... 16
                                 Recommendation 5 ........................................................................................ 18
                                 Recommendation 6 ........................................................................................ 19

Scope and Methodology........................................................................................................................ 20

Exhibit A – Agency Response .............................................................................................................. 22




                                                                                                                                                        i




USDA/OIG-AUDIT No. 01099-31-Hy                                                                                                                     v
Background and Objectives
Background                         Commodity Procurement Overview

                                   The Agricultural Marketing Service (AMS) Commodity Procurement Branch
                                   purchases commodities for distribution to schools, child and adult care
                                   centers, and homeless shelters. The commodities are provided through the
                                   National School Lunch Program (NSLP) and other Federal feeding programs
                                   such as the Child and Adult Care Food Program (CACFP) and Summer Food
                                   Service Program (SFSP). The NSLP is a federally assisted meal program
                                   administered by the Food and Nutrition Service (FNS), which operates in
                                   over 97,700 public and non-profit private schools and residential childcare
                                   institutions. Over 27 million children are served nutritional, low-cost, or free
                                   lunches each day.

                                   AMS donates about 20 percent of the commodities used in school lunches. In
                                   school years (SY) 2001-2002 and 2002-2003, AMS purchased an average of
                                   143 million pounds ($192 million) of beef products each year for distribution
                                   to schools. AMS had purchased approximately 120 million pounds of ground
                                   beef valued at $186 million as of February 2004 for SY 2003-2004.

                                   Coordination with other Agencies

                                   AMS coordinates with various agencies within the United States Department
                                   of Agriculture (USDA) to perform its commodity procurement activities,
                                   provide inspection services, and establish product specifications. AMS
                                   obtains commodity orders from FNS and is responsible for issuing and
                                   accepting bids, and awarding and administering contracts. Also, AMS is
                                   charged with overseeing the contractor’s production and shipment activities to
                                   ensure conformance with product specifications. 2 In addition, AMS works
                                   with the Food Safety and Inspection Service (FSIS) to ensure that products
                                   are wholesome, and processing plants operate under sanitary conditions.

                                   Revisions to Purchase Specification Requirements

                                   AMS has authority under Title 7, Code of Federal Regulations (CFR)
                                   § 36.2 to develop, revise, suspend, or terminate standards as needed. AMS
                                   works with FNS officials, FSIS officials, and potential vendors to develop
                                   specifications for product formulation, manufacturing, packaging, sampling
                                   and testing requirements, and quality assurance provisions.



2
    “Technical Requirements Schedule-Ground Beef-2003 (TRS-GB-2003) for USDA Purchases of Ground Beef Items, Frozen,” issued in May 2003 and
    known as TRS-GB-2003.


USDA/OIG-AUDIT No. 01099-31-Hy                                                                                                            1
                                 AMS issued the TRS-GB-2003 on May 29, 2003. The specifications provide
                                 written descriptions of ground beef commodities and specific requirements
                                 suppliers must adhere to when producing and delivering products for the
                                 USDA. The specifications promulgate requirements for (1) the quality,
                                 appearance, and delivery of the products; including conditions under which it
                                 is to be grown or produced, packed, stored, and transported, (2) explicit
                                 descriptions regarding its size, weight, color, and nutrient content, (3) details
                                 of the inspection process, and (4) specific packing and labeling requirements.
                                 Suppliers are responsible for ensuring that their technical proposal and
                                 processes comply with the specification requirements regarding materials,
                                 processing, refrigeration, fat limitations, patty weight, thickness and shape,
                                 preparation for delivery, and quality assurance.

                                 AMS periodically revises the specification requirements based on government
                                 and commercial trends, the emergence of different foodborne organisms,
                                 increase or decrease in commodity prices and demand, or to institute new
                                 sampling procedures.

                                 The SY 2003-2004 specifications added a requirement for process controls to
                                 measure the performance of the systems producing raw and finished products.
                                 Additional requirements added in the SY 2003-2004, TRS-GB-2003 include:

                                 •    Making supplier eligibility contingent on conforming product and plant
                                      sanitation practices, as measured by ongoing tests, audits, and monitoring
                                      verification procedures;

                                 •    Using Statistical Process Control (SPC) to evaluate each contractor’s
                                      overall process to produce high quality ground beef; 3

                                 •    Continued testing of finished products for Salmonella and Escherichia
                                      coli (E. coli) O157:H7, with products testing positive being excluded from
                                      purchases;

                                 •    Extending testing to include raw materials at slaughter and deboning
                                      facilities, including trim, to provide greater assurance of product quality
                                      before grinding occurred. This practice is consistent with large volume
                                      commercial buyers’ requirements;

                                 •    Setting the average fat content level at 15 percent for ground beef items,
                                      except for lean ground beef patties which remain at 10 percent. This
                                      change effectively reduced the average fat content of ground beef items
                                      purchased by 2 percent;

3
    The use of SPC would provide an objective basis for determining whether improvements were needed in production processes, and for
    excluding companies that did not consistently meet requirements.


USDA/OIG-AUDIT No. 01099-31-Hy                                                                                                     2
                                     •     Adding requirements for irradiated ground beef patties and irradiated bulk
                                           beef products; and

                                     •     Requiring potential contractors to submit technical proposals to address
                                           each of the specification requirements by documenting their processes.

                                     AMS Specification Requirements vs. FSIS Standards

                                     There are considerable differences between AMS’ specification requirements
                                     and FSIS’ standards for ground beef products.

                                     •     E. coli O157:H7 — Raw beef products positive with E. coli O157:H7 are
                                           declared adulterated. AMS’ purchase specification requirements prohibit
                                           the delivery of production lots of ground beef that test positive for E. coli
                                           O157:H7. However, under FSIS standards, 4 ground beef products positive
                                           with E. coli O157:H7 can be used in commerce after being further
                                           processed (cooked) at an official establishment to destroy the pathogen.
                                           The adulterated product must move under company control (e.g., through
                                           company seals) or FSIS control (e.g., under USDA seal).

                                     •     Salmonella — Although Salmonella is a bacteria and is not considered an
                                           adulterant under FSIS guidelines, AMS’ purchase specification
                                           requirements prohibit the delivery of production lots of ground beef that
                                           test positive for Salmonella. However, ground beef products positive with
                                           Salmonella can be used in commerce. According to FSIS standards, 5
                                           ground beef products may not test positive for Salmonella at a rate
                                           exceeding the national pathogen reduction performance standard of
                                           7.5 percent. Under FSIS rules, establishments are allowed a maximum
                                           of 5 positive samples for every 53 samples tested.

                                     •     E. coli — AMS’ purchase specification requirements prohibit the delivery
                                           of production lots of ground beef that exceed the critical limit
                                           of 1,000 organisms per gram. However, FSIS standards 6 require that the
                                           most recent E. coli test result not exceed an upper limit of 100 colony
                                           forming units per square centimeter and the number of samples testing
                                           positive can be no more than 3 or fewer out of the most recent 13 samples.
                                           Thus a production lot of ground beef could fail to meet AMS’
                                           requirements, while being considered acceptable by FSIS.



4
    FSIS Directive 10,010.1, Revision 1, “Microbiological Testing Program and Other Verification Activities for Escherichia coli.
    O157:H7 in Raw Ground Beef Products and Raw Ground Beef Components and Beef Patty Components,” dated March 31, 2004.
5
    FSIS Directive 10,011.1, “Enforcement Instructions for the Salmonella Performance Standards,” dated September 9, 1998.
6
    9 CFR § 310.25, Revised as of January 1, 2005.


USDA/OIG-AUDIT No. 01099-31-Hy                                                                                                      3
                                   •    Staphylococci, Total Coliforms, and Standard Plate Count — AMS’
                                        purchase specification requirements prohibit the delivery of production
                                        lots of ground beef that exceed the critical limit of 2,500 organisms per
                                        gram for Staphylococci and Total Coliforms and 500,000 organisms per
                                        gram for Standard Plate Count. However, there are no specific FSIS
                                        performance standards regarding these pathogens.

                                   Prior Audit Work

                                   The Government Accountability Office (GAO) performed a study of
                                   foodborne outbreaks in school meal programs and recommended that AMS
                                   highlight their stringent school-related procurement specifications on the
                                   agency’s web page, work with FNS to promote training and certification of
                                   key food service personnel, and study the advantages and disadvantages of
                                   donating pre-cooked or irradiated foods to schools. 7

Objectives                         Our audit evaluated the effectiveness of AMS’ oversight of the purchase
                                   specification requirements for ground beef donated to the NSLP and the other
                                   Federal feeding programs. Specifically, we assessed AMS’ management
                                   controls for (1) overseeing suppliers’ production processes, (2) monitoring the
                                   eligibility status of suppliers, (3) conducting microbiological sampling of
                                   ground beef products, to include AMS’ laboratory testing of the samples, and
                                   (4) coordinating with respective agencies involved in the Commodity
                                   Purchase Program.

                                   To accomplish these objectives, we visited the AMS National Office, AMS
                                   National Science Laboratory, and two plants that produced 24 percent of the
                                   SY 2003-2004 ground beef purchased by AMS (identified in this report as
                                   Plants A and B). We also reviewed AMS’ records on all of the 13 plants that
                                   obtained contracts to supply ground beef during the SY. (One of the plants
                                   discussed in more detail in the Findings is identified as Plant C). Our work
                                   focused on the documentation, operations, and regulations applicable to the
                                   production and distribution of ground beef commodities donated to the NSLP
                                   in SY 2003-2004. See the Scope and Methodology section of this report for
                                   further details.




7
    GAO-03-530, “School Meal Programs: Few Instances of Foodborne Outbreaks Reported, But Opportunities Exist to Enhance Outbreak Data and Food
    Safety Practices,” May 2003.


USDA/OIG-AUDIT No. 01099-31-Hy                                                                                                               4
Findings and Recommendations
Section 1. Supplier Production Process


Finding 1                            Adequate Controls Were Not in Place to Ensure That Salmonella
                                     Contaminated Ground Beef Was Not Supplied to the NSLP and
                                     Other Federal Feeding Programs

                                     Plant A and Plant B did not maintain adequate records to support the
                                     disposition of 3.5 million pounds of ground beef that had tested positive for
                                     Salmonella. This occurred because AMS had not established procedures
                                     requiring plants to maintain detailed records to ensure that product with
                                     microbial contamination was properly identified, segregated, and controlled.
                                     As a result, there was an increased risk that products positive with Salmonella
                                     could have been used in the production of commodities donated to the NSLP
                                     and other Federal feeding programs.

                                     Infants, children, the elderly, and immuno-compromised persons are more
                                     likely to experience severe illness that may require treatment and/or
                                     hospitalization as a result of Salmonella. On average, there are about 500 fatal
                                     cases each year. 8

                                     According to AMS’ purchase specifications TRS-GB-2003, production lots of
                                     ground beef that test positive for Salmonella are prohibited from use in the
                                     AMS Commodity Program. When AMS becomes aware that ground beef
                                     destined for the NSLP and other Federal feeding programs has tested positive
                                     for Salmonella, the product is declared ineligible and the AMS grader
                                     removes the commodity label from the boxes. However, AMS has no
                                     additional controls to ensure that products testing positive for Salmonella are
                                     properly segregated and controlled and not used in the production of NSLP
                                     commodities. Proper segregation and control are needed, because FSIS allows
                                     ground beef products that are positive for Salmonella to be used
                                     commercially.

                                     To determine whether the two plants that we visited had adequate
                                     management controls in place to ensure that Salmonella positive ground beef
                                     was not distributed for use in the NSLP or other Federal feeding programs,
                                     we requested sales and shipping documentation. Neither plant was able to
                                     provide adequate supporting documentation to account for the disposition of
                                     products testing positive for Salmonella. The management of Plants A and B
                                     explained that it would be very difficult to account for the disposition of lots
                                     with microbial contamination, because products rejected by AMS was still

8
    Center for Disease Control, Division of Bacterial and Mycotic Diseases, Salmonellosis Technical Information.


USDA/OIG-AUDIT No. 01099-31-Hy                                                                                      5
                                     eligible for sale as commercial products and was included with the remainder
                                     of the plants’ non-AMS’ designated production. 9

                                     At the time of our review, the TRS-GB-2003 did not contain any
                                     recordkeeping requirements instructing plants to account for products with
                                     microbial contamination. However, after we shared our preliminary
                                     conclusions with the agency, AMS modified the specification requirements.
                                     In the TRS-GB-2004 (dated April 26, 2004), the contractor was required to
                                     have documented procedures that ensure non-conforming products (e.g.,
                                     Salmonella positive) is identified and controlled to prevent unintended use or
                                     delivery.

Recommendation 1

                                     Establish procedures requiring plants to maintain documentation to ensure
                                     that products not in conformance with specification requirements regarding
                                     contamination with Salmonella are adequately identified, segregated, and
                                     controlled and not used in the production of commodities purchased by AMS
                                     for distribution to the NSLP and other Federal feeding programs.

                                     Agency Response.

                                    As part of AMS’ continuous improvement process under this program, firms
                                    were required to strengthen their internal controls by documenting procedures
                                    for the control and disposition of rejected products beginning in July 2004.
                                    Compliance with this requirement, over and above previous controls, is
                                    assured through monthly program audits.

                                    AMS has fully implemented requirements for firms to document the control
                                    and disposition of all rejected products including those that are Salmonella
                                    positive. Accordingly, no further action is required.

                                     OIG Position.

                                     We accept AMS’ management decision. For final action, AMS needs to
                                     provide the Office of the Chief Financial Officer (OCFO) with a copy of the
                                     procedures that are being used to ensure that non-conforming products are
                                     adequately identified, segregated, and controlled.




9
    Although AMS has a zero tolerance for products containing Salmonella, these products can still be used commercially. FSIS standards require that beef
    products not test positive at a rate exceeding the Salmonella performance standard of 7.5 percent.


USDA/OIG-AUDIT No. 01099-31-Hy                                                                                                                         6
Section 2. Supplier Eligibility

                      Suppliers participating in the AMS Commodity Purchase Program were
                      required to adhere to the policies, procedures, and requirements set forth in
                      the TRS-GB-2003, USDA Supplier Eligibility (SE) Program, Livestock and
                      Seed (LS-2) Announcement, and their approved technical proposal. However,
                      we found that eligible suppliers with a history of non-conformances, product
                      complaints, and products with microbial contamination remained in the AMS
                      Commodity Program. Also, potential suppliers were awarded contracts before
                      corrective actions were approved, which was a requirement of eligibility.

                      In accordance with the TRS-GB-2003 and SE procedures, AMS is responsible
                      for continuously monitoring the suppliers’ conformance with program
                      requirements to ensure eligibility. AMS accomplishes this through various
                      monitoring and verification procedures. SPC is a primary analysis tool used
                      by AMS to evaluate quality improvement. Through the use of flow charts,
                      scatter diagrams, control charts, histograms, etc., AMS collects, organizes,
                      and interprets microbial and fat test results to identify and reduce the amount
                      of variation in a plant’s processes. Also, AMS graders are present during
                      production to ensure that material, processing, packaging, and testing
                      requirements are being met. AMS’ auditors conduct on-site visits (to assess
                      the facilities, processes, and quality control programs used to produce the
                      commodities) to determine the supplier’s ability to meet contractual
                      requirements.

                      Any deviations observed by the graders or auditors are cited as
                      non-conformances. AMS’ policy prohibits suppliers from supplying beef
                      products under AMS’ contracts until corrective actions have been
                      implemented and proven effective. Suppliers not in conformance with the
                      prescribed requirements are to be suspended from the program and deemed
                      ineligible.


Finding 2             AMS Did Not Identify Repetitive Deficiencies and Instances of
                      Non-Conformance to Assess Overall Performance

                      AMS did not exercise its contractual authority to suspend suppliers with
                      recurring non-conformances, commodity complaints, and positive test results.
                      This occurred because AMS did not have a process for accumulating,
                      summarizing, reviewing, and analyzing cumulative data to assess a suppliers’
                      overall performance to determine continued eligibility. Also, AMS did not
                      establish criteria for determining when repeat violations warranted additional
                      corrective actions. In the absence of an overall performance review and of a
                      threshold against which AMS could measure performance, plants with a

USDA/OIG-AUDIT No. 01099-31-Hy                                                                      7
                                        history of non-conformance remained in the AMS Commodity Program and
                                        were awarded additional contracts to produce ground beef products for use in
                                        the NSLP and other Federal nutrition programs.

                                        AMS is responsible for monitoring and verifying the plant’s processing steps,
                                        quality assurance activities, and corrective actions on a daily basis. Also,
                                        AMS is responsible for performing SE audits at least three times per year to
                                        verify the supplier’s conformance with applicable program requirements to
                                        ensure eligibility. The audits are performed to (1) verify that the supplier has
                                        implemented an adequate segregation plan and quality control
                                        procedures, (2) review animal receiving records to ensure that they match
                                        FSIS’ records, (3) evaluate the plant’s pathogen intervention steps,
                                        monitoring frequencies and verification procedures for critical control points,
                                        and (4) verify that prohibited practices (such as air-injection stunning) and
                                        specified risk materials (e.g., spinal cord) are not used.

                                        According to USDA SE requirements, 10 AMS may suspend a supplier if the
                                        products are not in conformance with the TRS-GB-2003. However, this
                                        guidance lacks a threshold for the number of non-conformances a plant can
                                        have before being suspended from the program.

                                        We reviewed documentation at the AMS National Office on
                                        grader non-conformances, commodity complaints, and positive microbial test
                                        results for the 13 plants that were awarded AMS ground beef contracts
                                        in SY 2003-2004. The documentation showed that 12 of the 13 plants had
                                        pathogen positive test samples of ground beef and non-conformances.
                                        Commodity complaints were received on 9 of the 13 plants. We noted
                                        that, 3 of the 13 plants had repetitive deficiencies, which we viewed as a
                                        potential indicator of chronic problems with their production processes. In
                                        some instances, the corrective actions taken by the plants were not adequate
                                        to prevent the problems from recurring.

                                        •     For SY 2003-2004, Plant A produced 13,968,920 pounds of ground beef
                                              intended for sale to USDA for the NSLP.

                                              -     Over 8 percent (1,157,600 pounds) of the products produced were
                                                    rejected due to pathogen positive beef samples—to include one
                                                    Staphylococci positive sample, five Salmonella positive samples, and
                                                    one E. coli O157:H7 positive sample.



10
     “USDA SE Program,” Audit, Review, and Compliance (ARC) 1010 Procedure, June 3, 2003. This program applies to any supplier, meat packer, or
     processor who wants to supply meat or meat products for USDA LS-2 Commodity purchase programs. Specifically, it includes policies, procedures,
     and requirements concerning (1) the assessment of suppliers to determine eligibility to supply products to the AMS Commodity purchase
     program, (2) the continued verification of the eligible suppliers, (3) the responsibilities of the ARC branch, and (4) the responsibilities of the eligible
     suppliers.


USDA/OIG-AUDIT No. 01099-31-Hy                                                                                                                                8
                                            -     AMS issued 41 notices of non-conformance to Plant A during the SY.
                                                  Seven notices were issued because the plant ground product before
                                                  receiving test results from the laboratory, thus bypassing a key control
                                                  to prevent the use of pathogen positive beef and violating the plant’s
                                                  technical proposal. Six more notices were issued because the plants
                                                  Process Capability (Cpk) value 11 dropped below one, a violation of
                                                  AMS’ purchase specifications and an indication that the production
                                                  process is not producing consistent results. Ten non-conformances
                                                  were issued, because the plant did not have written procedures for
                                                  coarse ground beef and fat breakout removal. Seven
                                                  non-conformances were issued for the positive samples. Another three
                                                  non-conformances were issued because sampling procedures were not
                                                  followed properly. The remaining eight non-conformances were
                                                  single occurrences.

                                      •     For SY 2003-2004, Plant B produced 20,106,400 pounds of ground beef
                                            for the NSLP.

                                             -     Over 11 percent (2,306,000 pounds) of the products produced were
                                                   rejected due to pathogen positive beef samples, to include
                                                   1 Staphylococci positive sample, 11 Salmonella positive samples, and
                                                   2 E. coli O157:H7 positive samples.

                                            -     AMS documented 30 non-conformances at this plant during the year,
                                                  to include three notices issued because the beef to be ground included
                                                  numerous pieces of cartilage, bone, and serous membrane—items
                                                  prohibited as “objectionable materials” in the AMS Technical
                                                  Specifications. Also, two non-conformances were issued, because the
                                                  objectionable material exam was not performed or completed timely
                                                  in accordance with the plant’s technical proposal. In addition,
                                                  13 non-conformances were issued in response to the plant’s
                                                  Salmonella and E. coli O157:H7 positive samples. Three
                                                  non-conformances were issued for discrepancies in the plant’s fat
                                                  sampling. Another three non-conformances were issued due to
                                                  improper temperature levels and inaccurate temperature records. The
                                                  remaining six non-conformances were isolated incidents.

                                      •     Our review of AMS records showed a third plant with recurring,
                                            documented problems. For SY 2003-2004, Plant C produced
                                            15,084,860 pounds of ground beef for the NSLP.



11
     Cpk is a capability analysis index used to determine if a process can meet specification limits. A Cpk value of < 1 indicates that the process is not
     producing within the specification limit.


USDA/OIG-AUDIT No. 01099-31-Hy                                                                                                                          9
                      -   About 4 percent (564,220 pounds) of the products produced were
                          rejected subsequent to the detection of pathogen positive ground beef
                          samples—to include two Salmonella positive samples, one generic
                          E. coli positive sample, and three E. coli O157:H7 positive samples.

                      -   Ten commodity complaints were filed during the year, seven of which
                          related to metal pieces found in the beef. Although the plant stated
                          that it reviewed its metal detection procedures, tested personnel on
                          their responsibilities, and replaced old equipment, this problem
                          recurred throughout the SY.

                      -   AMS issued 30 notices of non-conformance during the SY. Eleven of
                          the non-conformances were issued due to the presence of excessively
                          large fat globules in the product. Plant C’s technical proposal states
                          that ground beef will not be produced with fat globules larger
                          than 1 inch -by-1 inch. Fat breakouts larger than described are to be
                          removed from the process line. Nine non-conformances were issued,
                          because the package was not adequately sealed, and the product was
                          exposed. Plant C’s technical proposal states that each roll of ground
                          beef will be tamper-proof (i.e., not exposed). The ground beef will be
                          packed into a continuous plastic film that is heat-sealed and secured
                          with metal clips. Another four non-conformances were issued due to
                          improper package weight. Plant C’s technical proposal states that each
                          package should weigh 10 pounds or more. Products that do not meet
                          the specified weight should be reworked. Two other non-
                          conformances were issued because objectionable materials had not
                          been removed from the product. According to the TRS-GB-2003 and
                          the plant’s technical proposal, objectionable materials such as bones,
                          cartilage, and heavy connective tissue must be removed from boneless
                          beef. The remaining four non-conformances did not recur throughout
                          the SY.

                   AMS did not have an adequate process in place to assess the ongoing
                   performance of a ground beef supplier to ensure conformance with the
                   purchase specifications. Prior to our review, the agency did not analyze a
                   plant’s history of microbial contamination, commodity complaints, and
                   non-conformances with the objective of identifying material
                   non-conformance with AMS specification requirements. Because each
                   incident was viewed in isolation, the risk that AMS would purchase
                   substandard ground beef was increased.

                   In addition to performing an ongoing analysis of supplier performance, AMS
                   needs to establish a criteria for determining when repetitive problems warrant
                   immediate action to suspend a supplier’s authority to receive and fulfill AMS
                   sponsored contracts. AMS has begun to move in this direction, by applying
USDA/OIG-AUDIT No. 01099-31-Hy                                                                10
                   statistical process controls to test for harmful microbes and excessive fat
                   content. The application of such management controls led to the suspension
                   of Plant B at the end of SY 2003-2004. However, the agency has not
                   established similar criteria for objectionable materials, non-conformances,
                   and other key aspects of ground beef production. Without such criteria, the
                   agency is subject to an increased risk that products purchased for the NSLP
                   and other federal feeding programs will not meet AMS’ specification
                   requirements for quality.

Recommendation 2

                   Implement a process to accumulate, summarize, review, and analyze
                   repetitive non-conformance violations, commodity complaints, and positive
                   test results for each supplier.

                   Agency Response.

                   AMS has had a process in place to accumulate, summarize, review, and analyze
                   both single and repetitive non-compliances and recipient agency complaints.
                   Further, this process is integrated within a broader process to measure and assess
                   supplier performance and eligibility. The critical attributes for ground beef
                   production for each supplier, microbial and fat content, are measured and
                   assessed by a statistical process. However, not all complaints
                   and non-compliances warrant equal weighting or rise to a critical level.
                   Currently, all non-compliances and complaints are required to be addressed by
                   suppliers through appropriate preventative and corrective measures that must be
                   implemented and proven effective. As to an integrated measure of overall
                   performance that reflects critical, non-critical, and minor non-compliances,
                   AMS agrees to evaluate possible measures of this type that would give a
                   reasonable assessment of overall supplier performance consistent with the
                   Federal Acquisition Regulation and other requirements.

                   OIG Position.

                   AMS’ response to the recommendation highlights the statistical process
                   controls used for assessing microbial and fat content. These controls were
                   reviewed during our fieldwork and reported in Finding 2. However, these
                   controls are not adequate for assessing a supplier’s overall performance,
                   which includes the supplier’s cumulative history of non-conformance
                   violations, commodity complaints, and positive test results. AMS’ response
                   does not specify how AMS will obtain a reasonable assessment of overall
                   supplier performance or determine when corrective actions should be
                   initiated.

                   We do not accept AMS’ management decision. AMS’ response does not meet
                   the requirements for management decision because it lacks a plan of action to
USDA/OIG-AUDIT No. 01099-31-Hy                                                                    11
                   be taken on the recommendation and proposed completion dates for
                   implementing the corrective action. To reach management decision, AMS
                   needs to identify the procedures that will be used to assess overall supplier
                   performance. Also, AMS needs to provide the dates by which it expects to
                   implement these procedures.

Recommendation 3

                   Establish a process for measuring supplier performance to determine when
                   corrective action should be initiated.

                   Agency Response.

                   AMS has had a process in place to accumulate, summarize, review, and analyze
                   both single and repetitive non-compliances and recipient agency complaints.
                   Further, this process is integrated within a broader process to measure and assess
                   supplier performance and eligibility. The critical attributes for ground beef
                   production for each supplier, microbial and fat content, are measured and
                   assessed by a statistical process. However, not all complaints and
                   non-compliances warrant equal weighting or rise to a critical level. Currently, all
                   non-compliances and complaints are required to be addressed by suppliers
                   through appropriate preventative and corrective measures that must be
                   implemented and proven effective. As to an integrated measure of overall
                   performance that reflects critical, non-critical, and minor non-compliances.
                   AMS agrees to evaluate possible measures of this type that would give a
                   reasonable assessment of overall supplier performance consistent with the
                   Federal Acquisition Regulation and other requirements.

                   OIG Position.

                   AMS’ response to the recommendation highlights the statistical process
                   controls used for assessing microbial and fat content. These controls were
                   reviewed during our fieldwork and reported on in Finding 2. However, these
                   controls are not adequate for assessing a supplier’s overall performance,
                   which includes the supplier’s cumulative history of non-conformance
                   violations, commodity complaints, and positive test results. AMS’ response
                   does not specify how AMS will obtain a reasonable assessment of overall
                   supplier performance or determine when corrective actions should be
                   initiated.

                   We do not accept AMS’ management decision. AMS’ response does not meet
                   the requirements for management decision, because it lacks a plan of action to
                   be taken on the recommendation and proposed completion dates for
                   implementing the corrective action. To reach management decision, AMS
                   needs to identify the procedures that will be used to assess overall supplier

USDA/OIG-AUDIT No. 01099-31-Hy                                                                     12
                   performance. Also, AMS needs to provide the dates by which it expects to
                   implement these procedures.



Finding 3          Bid Award Approval Procedures Were Not Followed

                   During SY 2003-2004, eight contracts involving over 7.7 million pounds of
                   beef were awarded to two plants with outstanding non-conformances. AMS
                   allowed these plants to bid on contracts before approving corrective actions
                   cited in the pre-award audits, even though AMS’ policy prohibits awarding
                   contracts to suppliers with outstanding non-conformances. The AMS
                   Contracting Officer explained that a business decision was made to award
                   contracts to these plants in order to meet the demand of its recipient agencies,
                   as there were a limited number of eligible suppliers at the beginning of the
                   SY. As a result, beef products purchased by AMS for use in the NSLP and
                   other Federal feeding programs, were produced by plants not in full
                   conformance with AMS’ policies during the time of production.

                   AMS’ LS-2 Announcement: Purchase of Frozen Beef Products for
                   Distribution to Child Nutrition and Other Federal Food and Nutrition
                   Programs, dated June 2003, requires potential contractors to correct identified
                   deficiencies and modify their processes and/or technical proposals before
                   being reconsidered for eligibility. Eligibility will depend on whether the
                   modifications demonstrate that their processes are capable of delivering beef
                   products in conformance with the TRS-GB-2003 and other applicable
                   contractual requirements.

                   According to the TRS-GB-2003, an ineligible ground beef contractor will not
                   be allowed to supply ground beef products under USDA contracts until
                   corrective actions have been implemented, proven effective, and a satisfactory
                   audit has been completed.

                   A pre-award audit is an evaluation of a potential contractors’ facilities,
                   processes, quality control programs, equipment, and procedures. It is
                   conducted after the technical proposal has been approved and before the
                   contractor bids on or is awarded a contract. It includes a review of the
                   documents and forms used during the production of beef products to ensure
                   that they comply with the TRS-GB-2003 and the potential contractor’s
                   approved technical proposal. Also, the audit will consist of interviews with
                   management and production personnel and a review of records related to the
                   purchasing, receiving, production, quality control, inventory, and shipping.

                   •   A pre-award audit was conducted at Plant A on July 10, 2003. The auditor
                       identified four non-conformances. One non-conformance was issued
                       because references regarding the use of a non-accredited laboratory in the

USDA/OIG-AUDIT No. 01099-31-Hy                                                                  13
                       plant’s    technical    proposal     had   not    been     removed.      A
                       second non-conformance was related to corrective and preventive actions
                       taken by the plant that had not been properly documented. A
                       third non-conformance concerned a tertiary regrinding process for fine
                       ground beef, which was not allowed in the TRS-GB-2003. The
                       fourth non-conformance was for a failure to include a statement indicating
                       that the product conforms to the TRS-GB-2003. Implementation of the
                       plant’s corrective actions was approved by AMS on August 13, 2003.
                       However, Plant A was awarded four beef contracts totaling 3,600,000
                       pounds between July 10, 2003, and August 13, 2003, prior to AMS
                       approving the plant’s corrective actions.

                   •   A pre-award audit was conducted at Plant B on June 25, 2003. The auditor
                       identified three non-conformances. Two of the non-conformances were
                       for a failure to include the plant’s spinal cord removal process and metal
                       detection procedures for ferrous metals in the technical proposal. The
                       third concerned the contractor’s failure to address the identification and
                       segregation of certain carcasses which were not to be used in beef
                       processed for NSLP and Federally funded feeding programs.
                       Implementation of the plant’s corrective actions was approved by AMS
                       on July 30, 2003. However, Plant B was awarded four beef contracts
                       totaling 4,176,000 pounds between June 25, 2003, and July 30, 2003,
                       before AMS approved the plant’s corrective actions on July 30, 2003.

                   The TRS-GB-2003 and LS-2 Announcement require a plant to correct
                   identified deficiencies prior to being eligible to bid on contracts to supply
                   beef products for AMS. Therefore, both plants should have been declared
                   ineligible to bid until corrective actions were cleared. According to the
                   contracting officer, “isolated verbal approvals” were granted for these plants
                   to bid on contracts due to the limited number of eligible suppliers available to
                   meet the demand of the recipient agencies. They were allowed to complete
                   corrective actions, after they had been awarded contracts. However, the
                   contracting officer stated that this policy was “relaxed” only for a short time,
                   and currently, in accordance with established policy, only plants that have
                   completely cleared all non-conformances detected during their pre-award
                   audit are allowed to bid.

Recommendation 4

                   Institute management controls to ensure that contracts are not awarded to
                   suppliers with outstanding non-conformances.




USDA/OIG-AUDIT No. 01099-31-Hy                                                                  14
                   Agency Response.

                   AMS had, at the time of the Office of Inspector General (OIG) audit, and
                   continues to maintain, management controls that ensure that contracts are only
                   awarded to eligible suppliers. The basis for the OIG recommendation was
                   a one-time occurrence at the program initiation. No further AMS action is
                   required for this recommendation.

                   OIG Position.

                   To reach management decision for this recommendation, AMS should
                   provide us with details to support the effectiveness of the current system of
                   controls. Specifically, AMS should provide documentation showing that for
                   each supplier, adequate corrective actions have been implemented and
                   approved for all non-conformances prior to being awarded contracts.




USDA/OIG-AUDIT No. 01099-31-Hy                                                                15
Section 3. Product Sampling



Finding 4                             Sampling Procedures to Test for Microbes, Objectionable
                                      Material, and Fat Were Ineffective

                                      Sampling methods used by the two plants we visited in testing for microbes,
                                      fat, and objectionable material in ground and boneless beef were not random,
                                      did not produce representative samples, and could allow the plants to
                                      influence sample selection. These deficiencies could impact the test results,
                                      and jeopardize product quality. This occurred because AMS accepted
                                      technical proposals that did not include an adequate process for selecting beef
                                      samples. This lack of effective management control could ultimately result in
                                      the procurement of ground beef that does not meet AMS’ specification
                                      requirements for quality.

                                      Product sampling is conducted to provide assurance of processing sanitation
                                      and product safety. Plant personnel who are trained and experienced in
                                      microbiological sampling are responsible for preparing the product sample for
                                      testing. The AMS grader provides oversight of the sample preparation process
                                      being performed by the plant to ensure that sample integrity is maintained and
                                      the sample is selected, prepared, and shipped in accordance with the
                                      specification requirements and Meat Grading and Certification (MGC)
                                      guidelines. 12 Also, the AMS grader is responsible for completing the lab
                                      forms, printing the sample labels, and assuring that the samples are secured in
                                      a tamper-proof sampling bag.

                                      TRS-GB-2003 requires the contractor to perform objectionable material
                                      exams on boneless beef to ensure the removal of major lymph glands, bones,
                                      cartilage, and heavy connective tissue. For each lot, a composite sample will
                                      be prepared from at least four randomly selected samples of boneless and
                                      ground beef. The products are tested for the following: Standard Plate Count,
                                      Coagulase Positive Staphylococci, Total Coliforms, E. coli, E. coli O157:H7,
                                      and Salmonella. The samples are also tested for fat content. All samples are
                                      sent to the laboratory for analysis.

                                      We found that the contractors’ approved technical proposals do not include
                                      the techniques and methods to be applied for selecting the boneless and
                                      ground beef microbial, fat, and objectionable material samples. Therefore, the
                                      plants could use ineffective methods that do not produce representative
                                      samples, which would adversely impact test results, and increase the risk that

12
     MGC Instruction 611, “Preparation of Samples for Laboratory Fat Analysis,” dated July 10, 2003, and MGC Instruction 613, “Examination and
     Sampling Procedures for Microbiological Requirements,” effective October 1, 2002.


USDA/OIG-AUDIT No. 01099-31-Hy                                                                                                                   16
                                      harmful microbes or objectionable materials could be present in ground beef
                                      products for AMS commodity purchases.

                                      To ensure effective sampling of ground beef, the technical proposals that are
                                      accepted from prospective contractors should provide complete information to
                                      support the techniques to be used in generating valid random samples. The
                                      procedures to be applied should ensure the integrity of the selection of the
                                      individual cuts of beef to be tested in order to provide reasonable assurance,
                                      to the extent possible, that there is no intentional manipulation of samples
                                      selected. At a minimum, the technical proposals should include detailed
                                      procedures to ensure that (1) sample numbers generated are representative of
                                      the total universe of beef product from which the AMS purchased ground
                                      beef may be produced, (2) samples are taken from throughout the bins (not
                                      just the top layer), and (3) samples for microbial contamination include
                                      surface testing.

                                      • We observed Plant A and B employees selecting samples from the top of
                                        each bin after they had been filled, instead of randomly from throughout
                                        the bins. We confirmed that plant personnel always used this method for
                                        selecting samples. Since this process, in part, is performed manually by
                                        plant personnel, the method allows for manipulation of the selected
                                        sample.

                                      • At Plant B, box numbers of ground beef samples for microbial testing were
                                        randomly generated by the plant’s management through the use of a
                                        Microsoft Excel program and were openly displayed prior to the start of
                                        each production run. Because the box numbers were known in advance,
                                        the samples may not have been representative of the entire day’s
                                        production as the plant’s employees would have had the option to exercise
                                        special care with the boxes scheduled for sampling.

                                     •     We observed Plant A’s employees coring boneless beef to extract samples
                                           for microbial testing. Bacteria are commonly transmitted through
                                           unsanitary handling procedures and contaminated surfaces. Because the
                                           outer surface of the sample, which is exposed, would be at greater risk for
                                           contamination, the plant’s practice of removing the sample from
                                           the inner - most parts of the cut of beef is less likely to produce a positive
                                           test result for harmful microbes.

                                      On April 26, 2004, AMS issued TRS-GB-2004, which revised the purchase
                                      specification requirements for ground beef. In response to the sampling
                                      issues we identified, AMS included a definition of random sampling. Random
                                      sampling is defined as a process of selecting a sample from a lot 13 whereby

13
     A lot consists of beef produced between “clean-ups,” and is from a single slaughterer or from a single processor.


USDA/OIG-AUDIT No. 01099-31-Hy                                                                                           17
                   each unit in the lot has an equal chance of being selected and is representative
                   of the lot’s production. We concluded that this definition does not fully
                   address the sampling issues noted above, with regard to coring cuts of beef to
                   extract samples and revealing sample box numbers in advance.

Recommendation 5

                   Require that plants accepted to supply beef to AMS establish adequate
                   sampling procedures and methodologies to select boneless and ground beef
                   samples for microbial, fat, and objectionable material testing.

                   Agency Response.

                   Since SY 2003-2004, AMS has implemented the following:

                   •   Required all boneless beef suppliers to document and implement a plan to
                       remove all objectionable materials.

                   •   Required precise microbial sample selection and preparation procedures for
                       boneless beef to ensure samples are random and properly extracted from the
                       product.

                   •   Required the contractor to actively oversee their subcontractor’s technical
                       proposals to ensure that all specifications and contractual requirements are
                       met.

                   •   Implemented internal AMS controls to ensure all of the TRS requirements
                       are addressed in the Technical Proposal review process.

                   •   Required that boneless beef samples for microbial testing are prepared from
                       surface tissues only.

                   AMS has fully implemented requirements and processes that address all of the
                   issues identified in the recommendation. No further action is required.

                   OIG Position.

                   We accept AMS’ management decision. For final action, AMS needs to
                   provide OCFO with a copy of the procedures that are being used for ensuring
                   that suppliers have adequate sampling procedures in place and for reviewing
                   technical proposals to ensure that all specification requirements are addressed.
                   AMS also needs to provide the dates on which these procedures were
                   implemented.




USDA/OIG-AUDIT No. 01099-31-Hy                                                                  18
Recommendation 6

                   Establish written procedures for the review of contractor’s technical proposals
                   to ensure that accepted proposals include detailed procedures and
                   documentation demonstrating that the contractor will apply an effective
                   sampling process that is free of bias or manipulation. The procedures should
                   ensure that samples are representative of the total universe of beef products
                   purchased by AMS; samples are selected from areas throughout the bins; and
                   samples for microbial contamination include surface testing.

                   Agency Response.

                   Since SY 2003-2004, AMS has implemented the following:

                   •   Required all boneless beef suppliers to document and implement a plan to
                       remove all objectionable materials.

                   •   Required precise microbial sample selection and preparation procedures for
                       boneless beef to ensure samples are random and properly extracted from the
                       product.

                   •   Required the contractor to actively oversee their subcontractor’s technical
                       proposals to ensure that all specifications and contractual requirements are
                       met.

                   •   Implemented internal AMS controls to ensure all of the TRS requirements
                       are addressed in the Technical Proposal review process.

                   •   Required that boneless beef samples for microbial testing are prepared from
                       surface tissues only.

                   AMS has fully implemented requirements and processes that address all of the
                   issues identified in the recommendation. No further action is required.

                   OIG Position.

                   We accept AMS’ management decision. For final action, AMS needs to
                   provide OCFO with a copy of the procedures that are being used for ensuring
                   that suppliers have adequate sampling procedures in place and for reviewing
                   technical proposals to ensure that all specification requirements are addressed.
                   AMS also needs to provide the dates on which these procedures were
                   implemented.




USDA/OIG-AUDIT No. 01099-31-Hy                                                                  19
Scope and Methodology
                   Our review focused on documentation, operations, and regulations applicable
                   to the purchase of beef commodities donated to the NSLP and other Federal
                   feeding programs in SY 2003-2004. The fieldwork was performed from
                   February 2004 to July 2004.

                   To evaluate contractors’ conformance with the AMS’ purchase specification
                   requirements for ground beef, which became effective on May 29, 2003, we
                   performed work at the AMS National Office, selected plants, and the AMS
                   National Science Laboratory.

                   AMS National Office

                   We interviewed officials from five AMS branches—Standardization; MGC;
                   Commodity Procurement; Audit, Review, and Compliance; and Technical
                   Services to obtain an understanding of their oversight responsibilities; their
                   roles in the development and revision of purchase specification requirements;
                   and the controls available to them to ensure conformance. Also, we
                   familiarized ourselves with the monitoring and verification responsibilities of
                   the graders and auditors.

                   We reviewed purchase specification requirements for ground beef, technical
                   proposals, purchase reports, commodity complaints, audit reports,
                   non-conformance reports, weekly summary reports, and other related AMS
                   and plant documentation. We made site visits to two selected plants, and
                   reviewed documentation provided by the AMS National Office for all of the
                   13 plants awarded beef contracts in SY 2003-2004.

                   Selected Plants

                   We performed audit work at Plant A in Fresno, California, and Plant B in
                   Hanford, California. These plants were judgmentally selected based on the
                   largest amount of products purchased; highest number of concerns raised
                   about the facility or its product; involvement in recalls; type and size of
                   company; location of supplier and grinder; and the current production
                   schedule. Of the 13 ground beef contractors in SY 2003-2004, Plants A and B
                   produced approximately 28.55 million pounds or 24 percent of the total beef
                   purchased for the NSLP as of February 27, 2004.

                   At the selected plants, we held discussions with the AMS grader; supervisory
                   grader; auditor; FSIS inspector-in-charge; and various plant officials such as
                   the plant manager, corporate vice president; and quality control manager.

USDA/OIG-AUDIT No. 01099-31-Hy                                                                 20
                   We toured both facilities to observe slaughter and grinding operations and
                   assess the contractors’ overall conformance with AMS’ specifications in the
                   TRS-GB-2003, for ground beef. Specifically, we evaluated (1) the AMS
                   graders’ monitoring and verification services and controls over ground beef
                   processing, (2) the oversight provided to the graders, (3) the sampling
                   procedures performed by the plant personnel and graders, which included
                   collecting, packaging, and securing the product sample, and (4) the plants’
                   controls for ensuring that Bovine Spongiform Encephalopathy-related risk
                   factors were prohibited (i.e., specified risk materials, advanced meat recovery,
                   air-injection stunning).

                   AMS Laboratory

                   To evaluate the adequacy of AMS’ microbial testing procedures, we visited
                   the AMS National Science Laboratory in Gastonia, North Carolina.

                   We toured the facility and observed the laboratory’s procedures for receiving,
                   handling, storing, and securing AMS microbial ground beef samples. During
                   our visit, we conducted interviews with the laboratory director, laboratory
                   manager, microbiology supervisor, and quality assurance officer.

                   Our audit was conducted in accordance with Generally Accepted Government
                   Auditing Standards.




USDA/OIG-AUDIT No. 01099-31-Hy                                                                  21
Exhibit A – Agency Response
                                 Exhibit A – Page 1 of 9




USDA/OIG-AUDIT No. 01099-31-Hy                       22
                                 Exhibit A – Page 2 of 9




USDA/OIG-AUDIT No. 01099-31-Hy                      23
                                 Exhibit A – Page 3 of 9




USDA/OIG-AUDIT No. 01099-31-Hy                      24
                                 Exhibit A – Page 4 of 9




USDA/OIG-AUDIT No. 01099-31-Hy                      25
                                 Exhibit A – Page 5 of 9




USDA/OIG-AUDIT No. 01099-31-Hy                      26
                                 Exhibit A – Page 6 of 9




USDA/OIG-AUDIT No. 01099-31-Hy                      27
                                 Exhibit A – Page 7 of 9




USDA/OIG-AUDIT No. 01099-31-Hy                      28
                                 Exhibit A – Page 8 of 9




USDA/OIG-AUDIT No. 01099-31-Hy                      29
                                 Exhibit A – Page 9 of 9




USDA/OIG-AUDIT No. 01099-31-Hy                      30
